CERTIFICATE OF COMPLIANCE
Daniel Cvijanovich,
Petititioner
v.
United States Secret Service,
Respondent
As required by Supreme Court Rule 33.1(h), I certify that the petition for a
writ of certiorari contains 1805 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Daniel Cvijanovich v?
2433 20th Ave S.Apt 305
Fargo, ND 58103
(701) 306-2447
danc636@gmail.com

